,v
~C
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO

ORIGINAL
Supreme Court, U.S,
FILED

OCT 0 2 2020
OFFICE OF THE CLERK

DAVID M. WASANYI, et alv
Petitioner
-against-

UNITED STATES OF AMERICA
Respondent

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

David M. Wasanyi, Pharm. D.,
Inmate# 3596876
PruntyTown Correction and Rehabilitation Center
2006 Trap Spring Road
Grafton, WV 26354

RECEIVED
OCT - 8 2020
•FFICE OF THE CLERK
SUPREME COURT. U.S:

QUESTIONS PRESENTED
1. Whether the Federal government infringed on Petitioner's rights under the Equal
Protection Clause of the Fourteenth Amendment to the United States Constitution,
made applicable to the federal statutes by the Due Process Clause of the Fifth
Amendment, by creatively enforcing Controlled Substances Act (CSA) against him.

2. Whether providing prescription medications and other healthcare services under
Rules and Regulations of Food and Drug Agency to impoverished blacks and other
minorities to avert health disparity as determined by Congress in Minority Health and
Health disparities Research and Education Act of 2000; 42 U S C 300u-6 and 21 U S C
399f of Food Drug and Cosmetic Act, is a violation of 21 U S C 842 of the Food Drug and
Cosmetic Act1.

3. Whether by the Federal Government's use of "The Diversion Amendment of 1984" in
the Uniform Controlled Substance Act whose provisions were covered by a latter Act,
Act embraced new provisions repugnant to it, to bring a civil action against petitioner,
did not violate the repeal clause of the United States Constitution.

Federal laws regulating food and drugs under Title 21 of U.S. Code, including 21 USCS 841, are constitutional; under Commerce
Clause, Congress has power to regulate large interstate market for illegal drugs, just as it has power to regulate food and drugs in
general. United States v Cidone (2011, CA3 Pa) 2011 US

I

Table of Authorities
1. United States v. Lovely, 319 F.2d 673; 1963 U.S---------------------

8

2. Chase v. United States, 256 U.S.-----------------------------------------------------

8

3. Gibson v. United States, 194 U.S. 182, 24 S. Ct. 613, 48 L. Ed. 926 (1904);

8

4. The Paquete Habana, 175 U.S. 677, 20 S. Ct. 290, 44 L. Ed. 320 (1900) —-

8

5. District of Columbia v. Hutton, 143 U.S. 18,12 S. Ct. 369, 36 L. Ed. 60.—

8

6. O Centro Espirita Beneficente Uniao Do Vegetal v Ashcroft 342 F.3d 1170, 1186
n.4 (10th Cir. 2003)------------------------------------------------------------------------

8

7. Taylor v. Flint Osteopathic Hospital, Inc., 561 F. Supp. 1152-------------------

8

8. Estelle v. Gamble, 429 U.S. at 105-----------------------------------------------------

8

9. Gil v. reed, 381 F.3d 649, 661-----------------------------------------------------------

8

10. United States v. Ahuja, 209 F. Supp. 3d 489---------- ------------------------------

11

11.Advance Pharmaceutical, Inc. v. United States, 391 F.3d 377 (2d Cir. 2004)---- 11
12. United States v. Poulin, 926 F. Supp. 246, 254-55 (D. Mass. 1996)

12

13.Kwoun v. SouthEast Mo. Pro. Standards Review Org. 11 F.2d 401; 1987 U.S.
App.
14.United States v. Tynen 78 U.S. (11 Wall.) 88, 95, 20 L. Ed. 153 (1871)

12
9

15.Massachusetts v. Wampanoag Tribe of Gay Head (Aquinnah), 853 F.3d 618,—-11

LIST OF PARTIES

PARTIES

Petitioner: David Wasanyi, Pharm.D.,
And,
City Pharmacy.LLC; City Pharmacy of Charles Town, Inc.; Amy Wasanyi; Roger
Lewis (Defendants)

Respondent is: United States of America

in

Table of contents
1. Question presented

I

2. Table of Authorities

II

3. Parties

III

4. Table of Contents

IV

5. Appendix

V

6. Exhibits --

VI

7. Decision bellow

1

8. Jurisdiction

1

9. Constitutional and statutory Provisions Involved

1

10.Statement of the case------------------------------------

2

11.Basis for federal jurisdiction----------------------------

7

12.Reasons for granting the writ--------------------------

7

13.Conflict with the decisions of other courts--------

7

14.Importance of the question presented-------------

9

15.Conclusion----------------------------------------------------

13

16.Proof of service

15

IV

Appendix
1. Denial for petition for rehearing and rehearing en Banc

A

2. Order from the fourth circuit------------------------------------

B

3. Order from the District Court------------------------------------

C

4. Minority Health and health disparity statute------------------------------

E

5. Minority Business registration Record---------------------------------------

G

6. Amendments in the Uniform controlled Substance Act since 1970

H

7. State of West Virginia House Bill 4598 ( Minority Bill)-----------------

I

v

Exhibit
1. Complaint filed by the Plaintiff------------------------------------------------

D

2. Food Drug and Cosmetic Statute on Minority issues-------------------

F

3. Food Drug and Cosmetic Act definition of a Prescription------------

J

4. 21 U S C 829(a) delivery of controlled substances to admin practi

K

5. Guidelines for the chronic Use of Opioid Analgesics -----------------

L

6. DEA policy document Number 71 FR 52715------------------------------

M

7. 21 U S C 801, Commerce Clause in Uniform Controlled substance Act —N
8. 21 U S C 379(a) reserve all rights over prescription medication to the
federal Government------------------------------------------------------------------------

O

9. 21 U S C 379j-42 Statute under which FDA sets prescription medication
prices---------------------------------------------------------------------------------------------

P

10. DEA Pharmacist Manual------------------------------------------------------------------

Q

11. Prescribes, Specialization, and Researchers as per DEA authorization-----R
12.lmplication of Race / ethnicity for Healthcare use-----

S

13. News article on Healthcare disparity in West Virginia

T

14. West Virginia Commerce clause, repealed in 2009 —

U

15. Small area life expectancy project--------------------------

V

16. Order by the Supreme Court of United States Extending period in which to
file a writ of Certiorari from 90 days to 150 days

VI

W

DECISIONS BELOW:
The order from the United States Court of Appeals for the Fourth Circuit denying the petition
for rehearing and rehearing en banc is unreported. (See Appendix A) The decision of the United
States Court of Appeals for the fourth Circuit is unreported. (See Appendix B) The order of the
United States District Court for the Northern District of West Virginia is unreported (see
Appendix C).

JURISDICITON
The judgment of the United States Court of Appeals for the Fourth Circuit was entered on
February 20th, 2020. An order denying a petition for rehearing was entered on June 22nd, 2020.
An order extending the time to file a petition for Writ of Certiorari from 90 days to 150 days,
due to ongoing public health concerns relating to COVID-19 is attached as Exhibit W.
Jurisdiction is conferred by 28 U S C §1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves Amendment VII, Amendment VIII, and Amendment XIV to the United States
Constitution made applicable to federal statutes by the Due Process Clause of the Fifth
Amendment, which provides:
Fourteenth Amendment state in part:
All persons within the jurisdiction of the United States shall have the same right in every State
and Territory to make and enforce contracts, to sue, be parties, give evidence, and to the full
and equal benefit of all laws and proceedings for the security of persons and property as is
enjoyed by white citizens, and shall be subject to like punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and to no other.
The Fifth Amendment states in part:
...No person shall be deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.

Page 1 of 15

The seventh Amendment state in part, In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than according to the
rules of the common law.
The Eighth Amendment States in Part
... no person shall be subjected to cruel and unusual punishments
These Amendments are enforced by:
42 U.S.C.S. 1981 provides, in part, that all persons within the jurisdiction of the United States
shall have the same right in every state to make and enforce contracts and to the full and equal
benefit of all laws and proceedings for the security of persons and property as is enjoyed by
white citizens and shall be subject to like punishment, pains, penalties and exactions of every
kind, and to no other.

Statement of the case
The petitioner is a Black Pharmacist who was practicing in the state of West Virginia. He found
two Pharmacies; City Pharmacy in the year 2010, and City Pharmacy of Charles Town in the year
2014. He registered them under the Minority Health and Health disparities Research and
Education Act of 2000; 42 U S C 300u-6 ( see Appendix E)( see Appendix /)and 21 U S C 399f of
Food Drug and Cosmetic Actf see Appendix D). In the State of West Virginia, blacks make up to
less than 4% of the total population but make up to 50% of the population below poverty line.

The petitioner was falsely accused of violation of the Comprehensive Drug Abuse and Control
Act of 1970, 21 U S C §801, et seq., and the District Court used The Diversion Control
Amendment of 1984, a repealed amendment by supersedeas .(Exhibit D syl. 56).

The petitioner was providing healthcare services to impoverished blacks and other minorities to
avert health disparity in an environment conducive to their needs and in accordance with the
congressional findings in 42 U S C 300u-6 (see Appendix E) ( see Appendix /)and 21 U S C
399f(see Appendix F).

Page 2 of 15

On addition to filling their prescription medications, the petitioner was offering minority
specific services listed below:
1- Educate impoverished blacks and other minorities the importance and significance of
living a healthy life style to deter chronic diseases like Diabetes, High blood pressure,
and HIV, rampant in their communities.
2- Help impoverished blacks and other minorities enroll in Medicare part D prescription
program.
3- Help impoverished blacks and other minorities enroll in Social security extra help
program to cover co pays of their medications if they can't afford them.
4- Offering diabetic and other chronic disease management education to deter premature
disabilities and death from Diabetic complications.
5- Enroll impoverished blacks and other minorities in manufacturer sponsored prescription
programs to cover cost of their maintenance medications to improve compliancy.
6- Provide blacks and other minority children with opportunities for internships, early
contact profession hours in healthcare fields to promote their interest in pursuing
careers in healthcare.
7- Provide qualified Blacks and other minorities with employment to improve their
standard of living.
City Pharmacy and City Pharmacy of Charles Town were the only Pharmacies in the State of
West Virginia and the surrounding areas with a pharmacist trained in minority specific
healthcare issues and registered by the Office of Minority Health through Minority Business
administration. (See Appendix G)

On February 29th, 2016, the plaintiff filed a Civil Action against the petitioner alleging violation
of Comprehensive Drug Abuse and Control Act of 1970, 21 U S C §801, et seq., and requested
the District Court to use The Diversion Control Amendment of 1984,(see Appendix H syl.6) to
justify it .(Exhibit D syl. 56) In support of his Action, the plaintiff alleged the following: (1)
Impoverished Blacks and other minorities were not residents of the state of West Virginia, and,
or, (2) their prescriptions were written by Practitioners located in states other than West

Page 3 of 15

Virginia(Exf)/b/t D. syl.38, 60) (3) some patients were paying cash for their medications(Ex/7/'b/t
D. Syl.43) (4) some prescriptions had

changes of the strength of the medications to be

dispensed or change of fill date with approval of the practitioner(Exf)/M D.syl.49) (5) Some
patients were sharing transportation going to both doctor and pharmacy visits.

On December 21st, 2018, the United States District Court for the District of Northern Virginia
granted the plaintiff summary judgment in the amount of $335,670 (see Appendix C). On
December 30th of 2019, the petitioner filed an appeal in the court of appeals for the fourth
Circuit. On February 20th, 2020, the United States Court of appeals for the Fourth circuit
affirmed the decision of the United States District Court per curiam( see Appendix B). On March
19th, 2020, the petitioner filed a petition for rehearing and rehearing en banc, on June 22nd,
2020, the petition for rehearing and rehearing en banc was denied giving reason that, no judge
requested a poll under Fed. R. App. P.35 on the petition for rehearing en banc (see Appendix A)

The petitioner believes that the lower court's award and affirmation of the civil penalties rested
on application of wrong legal principles1 and erroneous factual findings. In support thereof the
petitioner asserts the following:
-

By skipping the application of provisions of The Ryan Haight online Pharmacy Consumer
Protection Act of 2008 (see Appendix H syi.36), 21 U S C 353(b)(Exhibit J), 21 U S C
829(a)(b)(Ex/i/M K), 21 C F R 1306.12, 21 U S C 829(e) &(f), 21 U S C 831, which allows
Practitioners to

diagnose,

prescribe and

dispense prescription

medication

by

Telemedicine2, the plaintiff concluded that patients whose prescriptions were written by
prescribers located in states other than the state the patients resides in (majority people
of color)3 were not written for legitimate medical purposes.

5 U S C 702. Right of review

21 Li S C 802 (54) The term "practice of telemedicine" means, for purposes of this title, the practice of medicine in accordance with applicable
Federal and State laws by a practitioner (other than a pharmacist) who is at a location remote from the patient and is communicating with the
patient, or health care professional who is treating the patient, using a telecommunications system referred to in section 1834(m) of the Social
Security Act [42 USCS 1395m(m)], which practice—as shown in sections A through G of this section
Black physician states 42 USCS 1981 claim against Professional Standards Review Organization through allegations that PSRO discriminated
against plaintiff and his black patients on basis of race in determining that many of medical services performed by plaintiff for his Medicaid and
Medicare patients were medically unnecessary and hence that said services were not to be reimbursed under Medicaid and Medicare, and that

Page 4 of 15

By skipping the application of rules and regulations set by Drug Enforcement Agency
(DEA) in the DEA Practitioner's Manual and DEA Pharmacist's Manual( see Exhibit Q),
and also by skipping the application of Food Drug and Cosmetic Act, which governs
practitioners4 in prescribing and dispensing5 medications for legitimate medical reasons,
the plaintiff erroneously concluded that practitioners who wrote prescriptions for blacks
and other minorities, who filled them at the Petitioner's Pharmacy, did not write them
for legitimate medical reasons.

By ignoring proof of practitioner's registration with Drug Enforcement Agency (DEA) (21
USC 822 (b) &(c)) (Exhibit R) and their medical specialties as declared by the Boards of
Medical specialties (Exhibit L), used by pharmacists to determine prescriber's authority
to dispense controlled substances in the usual course of professional practice and in
accordance with treatment guidelines for "use of controlled substance medication
approved by FDA to treat both chronic and acute pain". (21 C F R 1306.046) The plaintiff
erroneously concluded that impoverished minority patients having patient-practitioner

such discriminatory conduct precluded plaintiff from performing his "contracts” with his patients. Taylor v Flint Osteopathic Hospital, Inc.
(1983, ED Mich) 561 F Supp 1152
4 21 U S C 396 Practice of medicine
Nothing in this Act [21 USCS 301 et seq.] shall be construed to limit or interfere with the authority of a health care practitioner to prescribe or
administer any legally marketed device to a patient for any condition or disease within a legitimate health care practitioner-patient
relationship. This section shall not limit any existing authority of the Secretary to establish and enforce restrictions on the sale or distribution, or
in the labeling, of a device that are part of a determination of substantial equivalence, established as a condition of approval, or promulgated
through regulations. Further, this section shall not change any existing prohibition on the promotion of unapproved uses of legally marketed
devices.
Once drug has been approved by Food and Drug Administration (FDA) and placed on market, physicians may prescribe it for any purpose and
such use has been declared fully permissible under Federal Food Drug and Cosmetic Act (FDCA), 21 USCS 301 et seq., by U.S. Supreme Court as
accepted and necessary corollary of FDA's mission to regulate pharmaceuticals without directly interfering with practice of medicine.
Ironworkers Local Union 68 v AstraZeneca Pharms., LP (2011, CA11 Fla) 634 F.3d 1352, 22 FLW Fed C 1893 (criticized in Med. Mut. of Ohio v
Abbvie Inc. (In re Testosterone Replacement Therapy Prods. Liab. Litig. Coordinated Pretrial Proceedings) (2016, ND III) 159 F Supp 3d 898)
In light of physicians' exercise of professional judgment, a patient suffers no economic injury merely by being prescribed and paying for a
more expensive drug; instead, the prescription additionally must have been unnecessary or inappropriate according to sound medical practicei.e., the drug was either ineffective or unsafe for the prescribed use. This is true even when the physician's decision to prescribe the more
expensive drug in lieu of a cheaper alternative is the product of fraud. See, e.g., Heindel v. Pfizer, Inc., 381 F. Supp. 2d 364, 380 (D.N.J. 2004)
(concluding that there is no economic injury for the purchase of a prescription drug when the drug proves at all beneficial to the patient
prescribed it (quoting In re Rezulin Prods. Liab. Litig., 210 F.R.D. 61, 68-69 (S.D.N.Y. 2002)))
21 C. F. R 1306.04 states that a prescription for a controlled substance to be effective must be issued for a legitimate medical purpose by an
individual practitioner acting in the usual course of his professional practice. The responsibility for the proper prescribing and dispensing of
controlled substances is upon the prescribing practitioner, but a corresponding responsibility rests with the pharmacist who fills the
prescription. An order purporting to be a prescription issued not in the usual course of professional treatment or in legitimate and authorized
research is not a prescription within the meaning and intent of 21 U.S.C.S. 829 and the person knowingly filling such a purported prescription as
well as the person issuing it, shall be subject to the penalties provided for violations of the provisions of law relating to controlled substances

Page 5 of 15

relationship with Practitioners located in states other than the states they reside in,
were not using their medications for legitimate medical purposes.

By ignoring the Supremacy of the United States Constitution7 and preemption of State
law8 by Food Drug and Cosmetic Act, the district court erroneously used illegal charges
brought against petitioner by Berkley County, a private entity alleging violation of Food
Drug and Cosmetic Act to justify awarding summary judgment to Plaintiff. The Food
Drug and Cosmetic Act under 21 U S C 337(a) prohibits it9.

By ignoring the fact that, the Department of Health and Fluman Services is the majority
shareholder/ Stakeholder in all prescription medications,(21 U S C 379a ( see Exhibit O).
and 21 C F R 200-299) and that in coordination with manufacturers10 sets prices for all
prescription medications( see Exhibit P), and also that, practitioners and pharmacist play
no role in setting

prices of prescription medication, the lower courts erroneously

7 Federal statutes cannot be invalidated under state constitution. Walker v. San Francisco Unified Sch. Dist.,46 F. 3d 1449, 95 cal. Daily Op.
service 737, 95 D.A.R. 1288 (9th Cir.)
8

The state of West Virginia Board of Pharmacy under 60A-2-201 states:
(a)
The state Board of Pharmacy shall administer the provisions of this chapter. It shall also, on the first day of each regular legislative
session, recommend to the Legislature which substances should be added to or deleted from the schedules of controlled substances
contained in this article or reschedule therein. The state Board of Pharmacy shall also have the authority between regular legislative
sessions, on an emergency basis, to add to or delete from the schedules of controlled substances contained in this article or
reschedule such substances based upon the recommendations and annrnval Of The Federal Fnnri. Drnp And Cosmetic Awnev
and shall report such actions on the first day of the regular legislative session immediately following said actions.
Legislative rule 15-2-1, 15-2-2, and 15-2-3 of The Rules Of The Board Of Pharmacy for the Controlled Substance Act , adopts the
requirements of the Federal Regulations, Drug Enforcement Administration, Department of Justice , 21 C F R parts 1300-1316, and the
Federal Controlled Substance Act. 21 U S C 801, revised as of April l*1, 2000. are adopted by the West Virginia Board of Pharmacy and
licensed Pharmacists and Pharmacies shall comply with them.
9

The Food, Drug, and Cosmetic Act (FDCA), 21 U.S.C.S. 301 et seq., does not provide a private right of action for violation of federal regulations.

As set forth in the FDCA, the Food and Drug Administration has authority to enforce the regulations if it finds that a manufacturer (dispenser)
has committed a violation. Specifically, 21 U.S.C.S. 337(a) of the Act provides: all such proceedings for the enforcement, or to restrain
violations, of this chapter shall be by and in the name of the United States. 21 U.S.C.S. 337(a). It has been well settled by the United States
Supreme Court and a host of federal courts of appeals and district courts that 337(a) is clear that there is no private right of action for violations
of the FDCA. Moreover, the absence of a private right of action to enforce the FDCA means not only is a private party precluded from bringing
suit to enforce the provisions of the FDCA, they also may not use other federal statutes or state unfair competition laws as a vehicle to bring a
private cause of action that is based on violations of the FDCA. Thus, a private litigant cannot bring a state-law claim against a defendant when
the state-law claim is in substance a claim for violating the FDCA, that is, when the state claim would not exist if the FDCA did not exist. William
W. Reeves vs. Pharmajet, inc.,846 F. Supp. 2d 791;2012 U.S.
10
The initial price set by a pharmaceutical company is "sticky" in that the price does not respond to market demand. Rather, the price is
generally increased over time as a routine matter by the manufacturer. The limited monopolies granted by patents on drugs and brand loyalty
of patients and physicians result in a core group of consumers who will buy a successful drug consistently. Even if negative information is
released about a medication, the demand for the drug may go down, but the price generally remains the same. A drug company may even
increase the price of a drug when it is expected that negative information will lower the demand, so that the price increase will compensate for
the decrease in quantities sold and the overall profits of the company will not fall, UFCW Local 1776, 620 F.3d at 126.28

Page 6 of 15

construed the cost of the medicines to the petitioner from manufacturers to be the
proceeds obtained from dispensing prescription medications to minorities patients.

The petitioner believes that the Plaintiff engaged in patterns and practices of racial
discrimination against black persons by denying equal protection of the law to a black
Pharmacist and impoverished blacks and other minorities. The plaintiff used "The Diversion
Amendment of 1984"(See Exhibit D Syl.6) in the Uniform Controlled Substance Act11, to bring a
civil Action against him, knowing that (1) it was superseded by more recent Amendments in the
Uniform Controlled substance Act, (2) some of its provisions were repealed and newer
provisions added to the Uniform Controlled substance Act, (3) the recent amendments were in
effect during the period petitioner and others were in Practice, (4) the newer provisions catered
for challenges encountered in dispensing and prescribing controlled substance medications to
be used for legitimate purposes to blacks and other minorities to alleviate health disparities.

BASIS FOR FEDERAL JURISDICTION
This case raises two questions (1) Interpretation of the Equal Protection Clause of the
Fourteenth Amendment of the United States Constitution, made applicable to the federal
statutes by the Due Process Clause of the Fifth Amendment and (2) Interpretation of deliberate
indifference clause of the eighth Amendment of the United States Constitution; The district
court had jurisdiction under the general federal question jurisdiction conferred by 28 U S C
1331.

REASON FOR GRANTING THE WRIT
A. Conflict with the decision of the other Courts (Including Fourth Circuit)
The holding of the courts bellow to use "The Diversion Amendment of 1984" of the Uniform
Controlled substance Act (see Appendix H syl.6), to determine whether or not

controlled

substances dispensed to impoverished blacks and other minorities were used for legitimate
medical purposes, when some of its provisions were repealed, and newer provisions
United States v. Lovely, 319 F.2d 673; 1963 U.S; The United States Court of Appeals For The Fourth Circuit has it that; It is a universally
accepted rule of statutory construction that where a later act purports to cover the whole subject covered by an earlier act, embraces new
provisions, and plainly shows that it was intended not only as a substitute for the earlier act but also to cover the whole subject involved and to
prescribe the only rules with respect {319 F.2d 680} thereto, the later act operates as a repeal of the earlier act even though it makes no
reference to the earlier act. Chase v. United States, 256 U.S. 1, 41S. Ct. 417, 65 L. Ed

Page 7 of 15

embraced, and they address prejudices with potential to deny impoverished blacks and other
minorities medical care, is in contrary with the holdings of the following Circuit Courts: United
States v. Lovely12, 319 F.2d 673; 1963 U.S ; Chase v. United States, 256 U.S. 1, 41 S. Ct. 417, 65 L.
Ed. 801 (1921); Gibson v. United States, 194 U.S. 182, 24 S. Ct. 613, 48 L. Ed. 926 (1904); The
Paquete Habana, 175 U.S. 677, 20 S. Ct. 290, 44 L. Ed. 320 (1900); District of Columbia v.
Hutton, 143 U.S. 18, 12 S. Ct. 369, 36 L. Ed. 60.

In addition, it is in contrary with Minority Health and Health disparities Research and Education
Act of 2000; 42 U S C 300u-6(see Appendix E)( see Appendix I) and 21 U S C of the Food Drug
and Cosmetic Act(see Appendix F), which protects healthcare providers who in good faith
provide health care services to impoverished blacks and other minorities to avert health
disparity in an environment conducive to minorities needs. The United States Court of Appeals
for the Tenth Circuit held that “When Congress undertakes to act in areas fraught with medical
and scientific uncertainties, legislative options must be especially broad and courts should be
cautious not to rewrite legislation, even assuming, arguendo, that judges with more exposure to
the problem might make wiser choices." O Centro Espirita Beneficente Uniao Do Vegetal v
Ashcroft 342 F.3d 1170, 1186 n.4 (10th Cir. 2003), aff'd on reh'g en banc, 389 F.3d 973 (10th
Cir. 2004) (en banc).

Also, In Taylor v. Flint Osteopathic Hospital, Inc., 561 F. Supp. 1152, Taylor13 argued that, "... by
failing to provide membership on review committees having the broadest representation
12

United States v. Lovely, 319 F.2d 673; 1963 U.S; The United States Court of Appeals For The Fourth Circuit has it that; It is a universally
accepted rule of statutory construction that where a later act purports to cover the whole subject covered by an earlier act, embraces new
provisions, and plainly shows that it was intended not only as a substitute for the earlier act but also to cover the whole subject involved and to
prescribe the only rules with respect {319 F.2d 680} thereto, the later act operates as a repeal of the earlier act even though it makes no
reference to the earlier act. Chase v. United States, 256 U.S. 1,41S. Ct. 417, 65 L. Ed
13 21 U S C 396 Practice of medicine
Nothing in this Act [21 USCS 301 et seq.] shall be construed to limit or interfere with the authority of a health care practitioner to prescribe or
administer any legally marketed device to a patient for any condition or disease within a legitimate health care practitioner-patient
relationship. This section shall not limit any existing authority of the Secretary to establish and enforce restrictions on the sale or distribution, or
in the labeling, of a device that are part of a determination of substantial equivalence, established as a condition of approval, or promulgated
through regulations. Further, this section shall not change any existing prohibition on the promotion of unapproved uses of legally marketed
devices.
Once drug has been approved by Food and Drug Administration (FDA) and placed on market, physicians may prescribe it for any purpose and
such use has been declared fully permissible under Federal Food Drug and Cosmetic Act (FDCA), 21 USCS 301 et seq., by U.S. Supreme Court as
accepted and necessary corollary of FDA's mission to regulate pharmaceuticals without directly interfering with practice of medicine.
Ironworkers Local Union 68 v AstraZeneca Pharms., LP (2011, CA11 Fla) 634 F.3d 1352, 22 FLW Fed C 1893 (criticized in Med. Mut. of Ohio v
Abbvie Inc. (In re Testosterone Replacement Therapy Prods. Liab. Litig. Coordinated Pretrial Proceedings) (2016, ND III) 159 F Supp 3d 898)

Page 8 of 15

feasible in terms of the various types of practice, e.g., for Negros who live and work in
environment and discriminatory conditions which causes and aggravate health conditions, both
physical and emotional, in which physician like affiant, engage in the area served by PSRO.
... by failing to provide requisite contents of norms for peer review e.g. taking into account
differing but acceptable modes of treatment Negro patients exposed to impoverished, racially
hostile environment, including at times being subject to inherit conditions, e.g., Sickle Cell
anemia.", were some of the issues the district court for The United States District of the Eastern
District of Michigan, considered to conclude that PRSO denied equal protection of the law {561
F. Supp. 1159}.

Importance of the Questions Presented
This case presents two fundamental questions, 1st, Interpretation of this court's decision in
United States v. Tynen 78 U.S. (11 Wall.) 88, 95, 20 L. Ed. 153 (1871), and 2nd' Interpretation of
United States District Court for the Eastern District of Michigan's decision in Taylor v. Flint
Osteopathic Hospital. These questions are of great public importance in that, they address
deliberate misconduct direct towards impoverished blacks and other minorities in all 50 states
and the District of Columbia by federal agents acting under the color of Federal authority,
resulting denial health/ prescription services consequently denial of equal protection of the
law. Impoverished blacks and other minorities make up to less than 20% of United States
population, but contribute to 50% of fatalities from preventable diseases. When they contract
debilitating diseases, try to seek medical care from recognized providers; the plaintiff creates a
hostile environment which prevents them from getting it, as a result, their diseases progress
faster and kill them early, thus, low life expectancy. Study co-published by the Center for
Disease Control, The National Association of Public Health Statistics and information Systems
and The Robert Wood Johnson Foundation in 2018 revealed that average life expectancy of
impoverished blacks and other minorities in United States is 56.9 years and average life
expectancy of the general population in United States is 78.7 years (see also Exhibit S) (see

Page 9 of 15

Exhibit V14). During Covidl9 pandemic, Blacks and other Minority Communities were impacted
at a disproportionate rate as compared to the general population. Therefore guidance on these
questions is important, to identify, mitigate, and eliminate systemic prejudice which causes
health disparity (See Exhibit T). In Estelle v. Gamble, 429 U.S. at 105, this court has held that
"[Ijntetionally interfering with the treatment once prescribed, is one of the forms of deliberate
indifference". Also see Gil v. reed, 381 F.3d 649, 661.

These issues's importance is enhanced by the fact that lower courts in this case seriously
misrepresented Food Drug and Cosmetic Act, United States v. Tynen, and Taylor v. Flint
Osteopathic Hospital by disregarding the existence of 21 U S C 399f and justified it by
referencing to illegal charges15 brought against petitioner by Berkley County of the State of
West Virginia in violation of 21 U S C 337(a)16, 21 U S C 801(6), deliberate indifference clause,
and Commerce Clause of the United States Constitution17. The plaintiff would have questioned
the authority of Berkley County on issues of Pharmacy practice before concerting with it (see

14 Exhibit V, page 29-30 table eight column two and three reveals that more than 50% of Blacks and Hispanics will die between the age of 5675 and most of them with family income of $10,101 and bellow.
United States Code 21 U S C 396 authorizes a healthcare practitioner to prescribe or administer any legally FDA approved medications to a
patient for any condition or disease within a legitimate health care practitioner-patient relationship.
Once drug has been approved by Food and Drug Administration (FDA) and placed on market, physicians may prescribe it for any purpose and
such use has been declared fully permissible under Federal Food Drug and Cosmetic Act (FDCA), 21 USCS 301 et seq., by U.S. Supreme Court as
accepted and necessary corollary of FDA's mission to regulate pharmaceuticals without directly interfering with practice of medicine.
Ironworkers Local Union 68 v AstraZeneca Pharms., LP (2011, CA11 Fla) 634 F.3d 1352, 22 FLW Fed C 1893 (criticized in Med. Mut. of Ohio v
Abbvie Inc. (In re Testosterone Replacement Therapy Prods Liab Litig Coordinated Pretrial Proceedings) (2016, ND III) 159 F Supp 3d 898)
No private right of action exists for violation of Federal Food, Drug, and Cosmetic Act. Ellis v C. R. Bard, Inc. (2002, CA11 Ga) 311 F.3d 1272,
State statute which conflicts with actual exercise of powers of Congress over commerce must give way before supremacy of national authority.
Willson v Black Bird Creek Marsh Co. (1829) 27 US 245, 2 Pet 245, 7 L Ed 412; Smith v Alabama (1888) 124 US 465, 31 L Ed 508, 8 S Ct 564;
New York, N. H. & H. R. Co. v New York (1897) 165 US 628, 41 L Ed 853,17 S Ct 418
16
The Food, Drug, and Cosmetic Act (FDCA), 21 U.S.C.S. 301 et seq., does not provide a private right of action for violation of federal
regulations. As set forth in the FDCA, the Food and Drug Administration has authority to enforce the regulations if it finds that a manufacturer
(dispenser) has committed a violation. Specifically, 21 U.S.C.S. 337(a) of the Act provides: all such proceedings for the enforcement, or to
restrain violations, of this chapter shall be by and in the name of the United States. 21 U.S.C.S. 337(a). It has been well settled by the United
States Supreme Court and a host of federal courts of appeals and district courts that 337(a) is clear that there is no private right of action for
violations of the FDCA. Moreover, the absence of a private right of action to enforce the FDCA means not only is a private party precluded from
bringing suit to enforce the provisions of the FDCA, they also may not use other federal statutes or state unfair competition laws as a vehicle to
bring a private cause of action that is based on violations of the FDCA. Thus, a private litigant cannot bring a state-law claim against a defendant
when the state-law claim is in substance a claim for violating the FDCA, that is, when the state claim would not exist if the FDCA did not exist.
William W. Reeves vs. Pharmajet, inc.,846 F. Supp. 2d 791;2012 U.S.
21 U S C 379a. Presumption of existence of jurisdiction
In any action to enforce the requirements of this Act (21 USCS 301 et sea.l respecting a device, tobacco product, food, drug, or cosmetic the
connection with interstate commerce required for jurisdiction in such action shall be presumed to exist.

Page 10 of 15

Exhibit D). In Taylor V. Flint Osteopathic Hospital, the United States District Court for the
Eastern District Michigan, Southern Division held that judging a black physician by none black
for taking into account different but acceptable modes of treatment of black patients exposed
to impoverished, racially hostile environment, including at times being subject to inherit
condition, constitutes violation of the due process clause of the fifth Amendment of the United
States Constitution {561 F. Supp. 1159}.

Furthermore, In Tynen, The Supreme Court of United States has it that, if two acts are
repugnant in any of their provisions, the latter acts without any repealing clause, operates to
the extent of the repugnancy as a repeal of the first {20 LED 153, 78 US 88}. In this case, the
lower courts did the contrary, ignored the repugnancy, and acknowledged an action under
provisions of the former repugnant the latter when the later was in effect. This error warrants
reversal. The United States Court of Appeals for the First Circuit reiterated this point in
Massachusetts v. Wampanoag Tribe of Gay Head (Aquinnah), 853 F.3d 618, and added that,
where two acts are in irreconcilable conflict, the later act prevails. Courts should endeavor to
read antagonistic statutes together in the manner that will minimize the aggregate disruption
of congressional intent {853 F.3d 627}.

The common sense understanding of "filling prescription medications for impoverished blacks
and other minorities to avert health disparity" is that you considered impoverished specific
standards to determine the legitimacy of prescriptions. These include: (1) Disease progression,
(2) Specialty of the Practitioner seen (Exhibit M, Page 52717), and (3) existence of PatientPractitioner relationship, (4) seeking specialty healthcare from specialists/ researchers located
in medical colleges or other research institutes like NIH ( National Institute of Health). In Taylor,
District court acknowledged that there is a need to review performance of healthcare
professionals to make sure that there practice is within the scope of their specialties but that
review should not be done as a blanket approach, issues like deterrence of racial prejudices
against provider and the patient being treated, on addition to standard of living of patients
should be adjusted for {561 F. Supp. 1159}.

Page 11 of 15

The lower court's reasoning that the petitioner's dispensing of prescription medication to
impoverished blacks and other minorities residing in states other than West Virginia constitutes
gross negligent and therefore highly culpable for violation of 21 C F R 1306.0418 of Uniform
Controlled Substance Act is unconvincing. It relied on a case from the second Circuit that does
contain a similar holding. See United States v. Ahuja, 209 F. Supp. 3d 489. However, Ahuja
based its conclusion on Advance Pharmaceutical, Inc. v. United States, 391 F.3d 377 (2d Cir.
2004), a case that involved improper sales of Pseudoephedrine, an over-the-counter
medication intended for purchase by consumers without supervision of practitioners. The
Advance Pharmaceutical Court made this distinction crystal clear, describing in its holding that
neither diagnosis nor prescription is required for a person to purchase it." See 21 U S C S
802(39)(A)(iv)(i)(aa) and 21 U S C 802(45)-(46) of the Food Drug and Cosmetic Act. On addition
to that, the Drug enforcement agency under 21 U S C 802 (45-46)confer the full responsibility to
make sure that Pseudoephedrine is sold to General distributor and retailers to be purchased
by patients for medical reasons to its manufacturers {391 F.3d 383-384}. The petitioner is a
pharmacist not a practitioner, he has a corresponding responsibility to make sure that the
prescription he fills in his Pharmacy originate from a doctor's office in which the patient has
established Practitioner- patient relationship 21 C F R 1306.04.

Also Dr. Ahuja was in contrary to this case in that, His dispensing was not based on different but
acceptable standards intend to provide equal protection of the law to impoverished blacks and
other minorities. In United States v. Ahuja, Dr. Ahuja Pharm.D., admitted liability for violation of
the Uniform Controlled Substance Act and its rules and regulations. He committed over 1000
Uniform Controlled Substance Act violations in a period of three years {736 Fed. Appx. 22}
these violations included: complete failure to keep adequate records; failure to conduct
inventory; and maintain security for controlled substances. On addition, his financial records

21 C. F. R 1306.04 states that a prescription for a controlled substance to be effective must be issued for a legitimate medical purpose by an
individual practitioner acting in the usual course of his professional practice. The responsibility for the proper prescribing and dispensing of
controlled substances is upon the prescribing practitioner, but a corresponding responsibility rests with the pharmacist who fills the
prescription. An order purporting to be a prescription issued not in the usual course of professional treatment or in legitimate and authorized
research is not a prescription within the meaning and intent of 21 ll.S.C.S. 829 and the person knowingly filling such a purported prescription as
well as the person issuing it, shall be subject to the penalties provided for violations of the provisions of law relating to controlled substances

Page 12 of 15

showed that he financially benefited from it by drawing a salary ranging from 150,000 to
200,000 annually. Also see United States v. Poulin, 926 F. Supp. 246, 251-55 (D. Mass. 1996).
On the other hand in Kwoun v. Southeast Mo. Pro. Standards Review Org. 622 F. Supp.520 the
United States Court Of Appeals for the Eighth Circuit reversed and remanded the District
Court's decision dismissing Kwoun et. al., contending that his denial from participating in the
Medicare program; subjection to abuses in connection with the sanction process; and
essentially deprivation of income, were violation his rights protected by 42 U S C 1981. It
further reiterated that, Among the rights protected by 42 U.S.C. 1981 are the right to earn a
living without regard to one's race, to make contracts for education, to fair use and access to
justice, and to participate in public benefits programs{622 F. 528-529}.

In cases involving provision of healthcare services to avert health disparity in impoverished
black and other minorities, other court have held that, refusal to take into account differing but
acceptable modes of providing healthcare services to patients exposed to racially-hostile
environments, including at times being subject to inherent conditions, e.g. sickle cell anemia
constitute deliberate indifference Taylor v. Flint Osteopathic Hospital {561 F. Supp. 1159}. The
lower courts in this case have done the contrary, they have seriously misinterpreted Food Drug
and Cosmetic Act, United States v. Tynen, and Taylor v. Flint Osteopathic Hospital, disregarded
the existence of 21 U S C 399f, 21 U S C 337(a)19 , 21 U S C 801(6), deliberate indifference
clause, and Commerce Clause of the United States Constitution ( Exhibit N).

19

The Food, Drug, and Cosmetic Act (FDCA), 21 U.S.C.S. 301 et seq., does not provide a private right of action for violation of federal
regulations. As set forth in the FDCA, the Food and Drug Administration has authority to enforce the regulations if it finds that a manufacturer
(dispenser) has committed a violation. Specifically, 21 U.S.C.S. 337(a) of the Act provides: all such proceedings for the enforcement, or to
restrain violations, of this chapter shall be by and in the name of the United States. 21 U.S.C.S. 337(a). It has been well settled by the United
States Supreme Court and a host of federal courts of appeals and district courts that 337(a) is clear that there is no private right of action for
violations of the FDCA. Moreover, the absence of a private right of action to enforce the FDCA means not only is a private party precluded from
bringing suit to enforce the provisions of the FDCA, they also may not use other federal statutes or state unfair competition laws as a vehicle to
bring a private cause of action that is based on violations of the FDCA. Thus, a private litigant cannot bring a state-law claim against a defendant
when the state-law claim is in substance a claim for violating the FDCA, that is, when the state claim would not exist if the FDCA did not exist.
William W. Reeves vs. Pharmajet, inc.,846 F. Supp. 2d 791;2012 U.S.

Page 13 of 15

The Supreme Court should address this deliberate misrepresentation of the law and clarify that
providing prescription and other health services to impoverished blacks and other minorities to
avert health disparity, does not violate the Uniform Controlled Substance Act.

For the foregoing reasons, certiorari should be granted in this case.
Respectfully submitted

David M. Wasanyi, Pharm. D.,
Inmate# 3596876
PruntyTown Correction and Rehabilitation Center
2006 Trap Spring Road
Grafton, WV 26354

Copy to
Jeffrey Wall
Solicitor General of United States,
Room 5614
Department of Justice,
950 Pennsylvania Avenue
N.W Washington D.C 20530-0001

William J. Powell
United States District Attorney for the Northern District of West Virginia
1125 Chapline Street, suite 300
Wheeling, WV 26003
Phone 304-234-0100 Fax 304-234-0112

Page 14 of 15

